'Office of
INSPECTOR GENERAL
         ,,



 <        ,w                "   11




     Evaluation of the Organizational
     Structure of Commission Libraries


     Report No. IG-02-94




                                         April 1994
         INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436

April 11, 1994




In the Commission, library services are provided by the National Library of
International Trade (commonly called the Main Library) within the Office of
Operations and the Law Library within the Office of General Counsel; the Office
of the Administrative Law Judge also maintains a "library", which actually would
more accurately be described as a reading room. The objective of this review
was to evaluate the justification for multiple libraries from management, user,
and monetary viewpoints.

This review was conducted by Urbach Kahn & Werlin PC in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The results of their review are presented in the attached report.

The auditors found that although the functions for material requests and
acquisition processing are duplicated in the two libraries, there does not appear
to be significant excess capacity to warrant a consolidation of these procedures
in either of the libraries. The review did not identify any instances of non-
compliance with Federal laws and regulations. However, certain matters regarding
the internal control structure were found as follows:

      1) The current organizational structure for the Main Library does not
      always provide for the proper separation of duties necessary to maintain
      adequate internal controls over acquisitions (page 13).

      2) Procedures for avoiding duplications in ordering are highly informal
      and require enhancement to reduce the likelihood of unnecessary duplication
      of titles between the two libraries (page 14).

The auditors also observed that the Commission's   directive on procurement does
not address the procedures used by the libraries   and that the budget for some
brochures, pamphlets, and reports that appear to   be within the purview of the
Main Library are in the budget for the Office of   Management Services.
We recommend that the Director of Operations instruct the Director of Information
Services to implement the recommendation on page 13 to delineate responsibilities
in the Main Library and to coordinate with the General Counsel in developing desk
procedures to prevent duplication of acquisitions as recommended on page 14.

We met with representatives of the Offices of Operations, Information Services,
General Counsel, and the Administrative Law Judge on February 14, 1994. The
representatives generally concurred with the findings and recommendations. The
Director of Operations agreed with findings and recommendations and took prompt
action to implement corrective actions. In his response to the draft report he
stated that the corrective actions to address the recommendations had been
completed on March 22, 1994. A summary of the Director's comments is presented
after each finding on pages 13 and 14. The Director's comments are presented
in their entirety as an appendix to the report.



                                          L~~+
                                           Inspector General
    UNITED STATES INTERNATIONAL
         TRADE COMMISSION

 EVALUATION OF THE ORGANIZATIONAL
 STRUCTURE OF COMMISSION LIBRARIES

           JANUARY 1994




~ Urbach Kahn & Wedin PC
\.X.VV CERTIFIED PUBLIC ACCOUNTANTS
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                         EVALUATION OF THE ORGANIZATIONAL
                         STRUCTURE OF COMMISSION UBRARIES

                                        CONTENTS




     INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT               1


     SECTION I:         BACKGROUND                                        2


     SECTION II:        OBJECTIVES, SCOPE AND METHODOLOGY                 4


     SECTION III:       RESULTS OF PROCEDURES                             6


     SECTION IV:        FINDINGS AND RECOMMENDATIONS                      13


     SECTION V:         OTHER MATTERS AND SUGGESTIONS                     15


     Appendix -         OPERATION'S RESPONSES TO THE DRAFT AUDIT REPORT




UK
&W
          INDEPENDENTACCOUNTANT~
             A GREED-UPON PROCEDURES
                              REPORT




UK
&W   ~~~~iiiiiiiiiiiiiii~~~~~~iiiiiiiiiiiiiii~iiiiiiiiiii
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS


                                    INDEPENDENT ACCOUNTANT'S
                                  AGREED-UPON PROCEDURES REPORT




      UNITED STATES INTERNATIONAL TRADE COMMISSION
      OFFICE OF INSPECTOR GENERAL

      We have performed certain agreed-upon procedures related to the evaluation of the organizational
      structure of Commission libraries and the potential operational consolidation of the libraries within
      the United States International Trade Commission (USITC). The procedures, identified in Section
      II of this report, were agreed to by USITC's Office of Inspector General and were performed to
      assist USITC in evaluating the current organizational structure of its libraries and determining the
      effects of their potential consolidation. This report is intended solely for the information of USITC.
      This restriction is not intended to limit the distribution of this report, which is a matter of public
      record.

      The objectives of this engagement included the performance of agreed-upon procedures by Urbach
      Kahn & Werlin PC (UKW) to determine the advantages and disadvantages of the current
      organizational structure of the three libraries within USITC.

      The results of our procedures are discussed in Section III of this report. Other findings and
      recommendations identified during our evaluation are discussed in Section IV of this report.




      Washington, DC
      January 20, 1994




                                                                  -1-
                                       GOVERNMENT AUDIT AND CONSULTING GROUP
                       1200 Seventeenth Street NW. Washington, DC 20036 (202) 296-2020 FAX (202) 223-8488
                                      Worldwide Coverage through Urbach Hacker Young International
                                                                                                          SECTION I

                                                                                             BACKGROUND




UK
&W ~iiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiii   iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~   iiiiiiiiiiiiiii-===-____
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                             BACKGROUND



     Introduction

     The United States International Trade Commission (USITC or ITC) is an independent agency of the
     United States Government established by an act of Congress. USITC conducts investigations and
     reports findings related to international trade and economic policy matters on behalf of both the
     President and Congress.

     USITC is a quasi-adjudicative, independent, and multipartisan agency with broad investigative
     powers on matters of trade. The ITC makes determinations of injury and threat of injury to U.S.
     industry by imports. ITC activities also include:

          • determining whether U.S. industries are materially injured by imports that benefit
            from pricing at less than fair value or from subsidization;

          • directing actions, subject to Presidential disapproval, against unfair trade practices
            such as patent infringement;

          • making recommendations to the President regarding relief for industries seriously
            injured by increasing imports;

          • advising the President whether agricultural imports interfere with price-support
            programs of the U.S. Department of Agriculture;

          • conducting studies on trade and tariff issues and monitoring import levels; and

          • participating in the development of uniform statistical data on imports, exports, and
            domestic production and in the establishment of an international harmonized
            commodity code.

     USITC has a full-time permanent staff of approximately 450 individuals, with budget appropriations
     for fiscal years 1993 and 1994 of $44,852,000 and $43,500,000, respectively.

     Library services

     USITC's National Library of International Trade (Main Library) has a full-time staff of nine
     employees responsible for providing trade related resources and reference assistance to USITC
     employees, members of other Government agencies and the public.

     USITC's Law Library has three employees to maintain the necessary legal reference and resource
     materials needed to support the research efforts of the members of the Office of the General
     Counsel, Office of Unfair Import Investigations, Office of Administrative Law Judges, other USITC
     employees and the public.




UK                                                 -2-
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                             BACKGROUND


     USITC's Office of the Administrative Law Judges (ALJ) library maintains certain legal serial
     publications accessible only to the ALJs and their staff. The materials in the ALJ library are
     acquired by the Law Library staff at the direction of the Office of the ALJ.

     The Chief of Library Services is responsible for the Main Library and reports to the Assistant
     Director of the Office of Operations. However, USITC has just implemented a reorganization in
     which the Office of Information Resource Management, the Statistical Services Division and.
     Library Services were consolidated into a newly created Office of Information Services. This office
     will report to the Office of Operations. The Law Library and the ALJ library were not included in
     this consolidation.




UK                                                  -3 -
&W
                                                          SECTION II

                          OBJECTIVES, SCOPE AND
                                  METHODOLOGY




UK
&W   iiiiiiiiiiiiiii~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~~~~~iiiiiiiiiiiiiii~~iiii:iiiiiiiiii
                      UNITED STATES INTERNATIONAL TRADE COMMISSION

                               EVALUATION OF THE ORGANIZATIONAL
                               STRUCTURE OF COMMISSION LIBRARIES

                                OBJECTIVES, SCOPE AND METHODOLOGY



     Objectives

     Urbach Kahn & Werlin PC (UKW) was engaged to perform agreed-upon procedures related to the
     evaluation of the organizational structure and potential operational consolidation of the libraries
     within USITC. The objective of this engagement was to determine the benefits and disadvantages
     of the current organizational structure of the three separate libraries within USITC. The costs and
     benefits of reorganizing the management structure of the libraries was also examined.

     Scope

     UKW conducted its evaluation from January 10 to January 20, 1994 at the offices of USITC in
     Washington, DC. UKW's engagement staff met with numerous USITC employees involved in the
     various library services. In addition, UKW surveyed twenty other employees who frequently utilize
     the three libraries.

     Methodology

     The general procedures followed by UKW were as follows:

     •   Document an understanding of the objective of each library.

     •   Identify and review applicable guidelines and operating procedures for library services.

     •   Review previous studies relating to library operations and services.

     •   Document an understanding of each library's acquisition and procurement processes and
         determine if significant duplications of purchases or functions exist.

     •   Interview key personnel from the Office of Library Services, the Office of the General Counsel
         and the Office of the Administrative Law Judges and discuss the following:

         tI   Internal and external users of each library
         tI   The type and amount of time spent on requests for assistance
         tI   The number of employees working in each library
         tI   The functions performed by each employee
         tI   Evaluation of new acquisitions in each library
         tI   Approval for acquisitions and coordination with the other libraries to avoid unnecessary
              duplication
         tI   Possible effects of an organizational consolidation of the libraries, library employees and
              library users

     •   Document and evaluate personnel costs and requirements in each library, including managerial
         and administrative personnel.

     •   Identify any possible cost savings realizable from a managerial consolidation or reorganization.


UK                                                   -4 -
&W
                      UNITED STATES INTERNATIONAL TRADE COMMISSION

                              EVALUATION OF THE ORGANIZATIONAL
                              STRUCTURE OF COMMISSION LIBRARIES

                                OBJECTIVES" SCOPE AND METHODOLOGY



     •   Identify the costs of maintaining each library, including books, periodicals, CD-ROM and on-line
         data search systems.

     •   Evaluate procedures for avoiding unnecessary duplication in acquired materials; obtain and
         evaluate justifications and costs for known duplications.

     •   Perform a survey of 20 USITC employees who frequently utilize the various library services
         available and inquire about:

         ./   How much time is spent in each library
         ./   What services are used
         ./   Whether books are borrowed and how often
         ./   How the library staff provide assistance
         tI    Access to the facilities
         tI   The responsiveness of each library
         ./   Possible effects of a reorganization on the user

     •   Based on discussions with USITC personnel and observations, determine the possible impact
         of reorganizing the libraries.




UK                                                   -5-
&W
                                                                                     SECT/ON II/

                                       RESUL TS OF PROCEDURES




UK
&W   ~:iiiiiiiiiiiiii:iiiiiiiiiiiiii~iiiiiiiiiiiiiii~~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                       RESULTS OF PROCEDURES




     Main Ubrary

     In order to aid in the accomplishment of its mission, USITC established the National Library of
     International Trade (Main Library). The Main Library's mission, as outlined in USITC Directive
     1027.1, dated February 12, 1993, states:

          The Library is the information and research center for the agency and provides the U. S.
          International Trade Commission staff with a complete program of research, reference,
          inter-library loan, and on-line services. In addition, it provides resources and reference
          assistance about the activities of the Commission and represents the Commission to
          other Government agencies and outside parties.

     The Directive further lists the primary functions of the Main Library as follows:

          •   Selects, acquires and maintains a research collection of trade and economic
              information in a variety of formats (print, databases, audio-visual materials) to meet
              the information needs of the Commission staff. Coordinates and controls the use
              of these resources.
          •   Provides in-depth analysis of information needs, information resources, and other
              specific information requirements of the agency staff.
          •   Answers inquiries, provides information, and assembles background materials in
              order to respond to requests or to initiate appropriate action based on the goals and
              objectives of the Library's program.
          •   Provides library service to the public as staff time and budget allows.
          •   Maintains the OCLC database and offers on-line information and retrieval services
              on LEXIS/NEXIS, Dialog, and other databases.
          •   Represents the agency on committees of FEDLINK (Federal Library and Information
              Center Committee) and at other professional library association activities.
              Participates in networking and cooperative activities with other library systems.
          •   Acts as an agency archive.

     The Main Library is separated into two Sections. Members of the Reference and Research
     Services Section answer inquiries, provide information and assemble background materials as
     described above. Members of the Technical Services Section select, acquire and update the Main
     Library's collection of trade and economic information published in the various media formats. The
     heads of both Sections report to the Chief of Library Services, who currently reports to the
     Assistant Director of the Office of Operations. A new reorganization about to be implemented by
     USITC would place the Main Library within the new Office of Information Services.

     The Chief of Library Services is responsible for the management of operations within the Main
     Library and ensuring that the mission of the Main Library is properly and efficiently executed. The
     Chief also serves as the Cost Center Manager for the Main Library's budget. A Cost Center
     Manager, as defined in USITC Directive 2103, dated January 16, 1990, is:




UK
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                       RESULTS OF PROCEDURES




          ... delegated direct responsibility to authorize the use of agency resources by the
          Chairman, and has been allocated funds for that purpose along with the responsibility
          to remain within those funds in accordance with expenditure plan allocation
          instructions.

     The former Chief of Library Services was reassigned to the Office of Operations as a Technical
     Information Specialist on February 19, 1993, and to the Office of Information Services (OIS) on
     February 6, 1994. The two Section Heads have been alternating in the additional role as Acting
     Chief of Library Services since that time.

     The Main Library's fiscal year 1993 budget provided $240,000 for the purchase of serials and
     subscriptions, $45,000 for books and $5,000 for binding. Almost half of the budget for
     subscriptions is expended with one vendor -- a vendor who provides the Main Library with the
     majority of its most common serial publications. The libraries also receive and distribute
     approximately $70,000 in pamphlets and other documents published by the Government Printing
     Office. These items are currently maintained in the supplies budget within the Office of
     Management Services.

     The costs for the Main and Law Libraries' electronic media and on-line reference sources are
     budgeted and tracked by the Office of Information Resources Management (OIRM), which vvas
     recently merged into the Office of Information Services. OIRM, now 015, is responsible for all
     electronic USITC information systems, including the libraries' on-line reference systems and
     cataloging program.

     The majority of the users of the Main Library are USITC employees, primarily from the Offices of
     Economics, Industries, Investigations, Unfair Import Investigations, and Tariff Affairs and Trade
     Agreements. Reference materials used by USITC employees vary widely, but assistance from the
     Main Library staff is concentrated on locating and acquiring reference materials as well as
     performing research functions. Assistance to outside users, including the general public, generally
     involves more research assistance and more staff resources.

     Law Ubrsry

     USITC's Law Library, located on the sixth floor of the USITC building, was established to assist
     the Office of the General Counsel (OGC) in maintaining technical reference materials needed to
     support the legal research efforts of the agency. The two Law Librarians and their assistant help
     support attorneys from the Office of the General Counsel, the Office of Unfair Import
     Investigations, and the Office of the Administrative Law Judges. In addition, they provide research
     and reference assistance on trade related legal matters to other USITC employees, outside
     attorneys and the public (as needed).

     The Law Librarians report directly to the General Counsel, rather than the Chief of Library Services.
     The Law Library budget for fiscal year 1993 included $107,500 for serials and subscriptions and
     $27,500 for books. The costs for the Law Library's on-line research systems (e.q., LEGI-SLATE
     and WestLaw), as well as the cataloging system used by both libraries) are included in OIRM's
     budget as mentioned previously.

UK                                                  -7 -
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                        RESULTS OF PROCEDURES




     Although the basic functions of the Main Library and the Law Library are very similar, the Law
     Library is significantly smaller than the Main Library, and its policies and procedures are more
     informal than those within the Main Library.

     The Administrative Law Judges (ALJ) library is a separate reading room maintained on the second
     floor of the USITC building. The ALJ library is used primarily for research only by the ALJs and
     their staff. The cost of the materials for the ALJ library is included in the Law Library's budget
     for books and publications. However, the Chief Administrative Law Judge has been authorized
     by the General Counsel to select the appropriate materials for the ALJ library up to the $14,000
     suballocated for fiscal year 1993.

     Systems understanding and documentation

     Through discussions with various USITC personnel and review of applicable USITC procedures and
     guidelines, we documented and evaluated the significant internal control systems and procedures
     regarding the requisition, approval, ordering, receipt and tracking of books, serials and publications
     within the three libraries. Our review did not identify any instances of non-compliance with
     Federal laws and regulations. We did, however, identify certain matters regarding the internal
     control structure which we discuss further in Section IV of this report.

     Personnel and materisl costs

     We obtained information regarding the personnel and materials costs incurred by the libraries. We
     identified the pay grade levels of the current positions of the various library personnel and ensured
     that they were within the standard pay grade ranges for those positions established by the US
     Office of Personnel Management. We also reviewed the list of contract awards for books and
     serials awarded. No unusual items were identified in performing these procedures.

     Personnel interviews

     We interviewed the following USITC employees with significant involvement in providing library
     services within USITC:

           •   Assistant Director of the Office of Operations
           •   General Counsel
           •   Former Chief of Library Services
           •   Section Head, Reference and Research Services
           •   Section Head, Technical Services
           •   Law Librarians

     Our interviews focused on the following areas:

           •   Prior reviews of library services
           • . Internal and external users of the libraries
           •   Forms of assistance provided to users
           •   Procedures for materials acquisitions

UK                                                   -8 -
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                       RESULTS OF PROCEDURES




          •   Staffing within each library
          •   Effects of a possible consolidation on the libraries, their staff and the users

     Several recurring issues surfaced during our interviews:

     Procedures to avoid duplication ofmaterial acquisitions: The current organizational structure of the
     Main Library and the Law Library provides for the separation of operating and acquisition functions
     between the two libraries. While the specific materials being evaluated and requested for each
     library may be different, the procedures for approving material requests and processing orders
     through the procurement and acquisition process are essentially identical in both libraries.

     This situation raises concerns about possible duplications in books or other materials purchased
     for the Main Library and the Law Library. Due to the differences in the subject matter (general
     trade versus trade law), there is minimal overlap in material purchases. In cases where the subject
     matter is considered overlapping, or where an item may be of interest to the users of the other
     library, the cataloging system employed by both libraries as well as a log of outstanding orders,
     will be searched. If not found, a call will be placed to the other library to determine if the other
     library has or wants the item in question.

     Although the functions for material requests and acquisition processing are duplicated in the two
     libraries, there does not appear to be significant excess capacity to warrant a consolidation of
     these procedures in either of the libraries.

     Current organizational structure: The current organizational structure of the libraries has one
     significant advantage which might be sacrificed through a consolidation. The management offices
     responsible for each library (Office of Operations and the Office of the General Counsel) are also
     responsible. to the primary users of each library. This segregation allows management to
     understand and respond to the needs of the users and promote the capabilities of each library.

     Decreased staffing of the Main Ubrary: The issue of staffing was addressed both in our interviews
     and, also, included in the Library Task Force report dated March 16, 1992 and the Catholic
     University of America (CUA) study completed in 1991. The Main Library staff has been reduced
     from twelve full-time employees (several years ago) to ten and is currently at nine employees since
     the Chief of Library Services went on detail with the Office of Operations. One employee
     reinforced the need for a Professional Acquisitions Librarian (as recommended in the Library Task
     Force report) but our study did not try to determine the specific staffing needs of the libraries.

     Differences in mission, users, materials and operating style: We noted certain basic differences
     between the Law Library and the Main Library that should be considered in evaluating a potential
     reorganization.

     First, the Main Library operates as the information and research center for general international
     trade issues, representing USITC and its research efforts to outside parties, providing research
     assistance to USITC employees. The Law Library focuses at supporting the legal research efforts
     of USITC attorneys, paralegals and other employees as needed.


UK                                                  -9-
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                       RESULTS OF PROCEDURES




     Next, the principal users of the Law Library are legal staff within the Offices of the General
     Counsel, Commissioners, Unfair Import Investigations, and the Administrative Law Judges. Other
     employees use the Law Library sparingly. The Main Library supports the economists and trade
     analysts within the Office of Operations, as well as the administrative staff in the Commissioners'
     Offices. Only a limited number of employees appear to use both libraries evenly.

     As a result of the different needs of the libraries, it follows that the materials purchased in each
     library are, except in limited cases, mutually exclusive and the knowledge needed to maintain the
     different collections in each library is not easily transferable.

     We also noted that the extraordinary research needs of the OGC attorneys have resulted in off-
     hours access to the Law Library being granted. The issue of off-hours access to the Main Library
     was brought up in a prior study and was found not to be advisable for security concerns. The
     hours for public access to the Main Library were increased several years ago and no further
     concerns regarding public access have been raised since that time.

     Finally, we noted that the smaller size of the Law Library and its limited users have resulted in a
     more relaxed operating style which appears to benefit the users of the Law Library as well as its
     staff.

     Costs and benefits of the ALJ library: We discussed the need for a separate ALJ reading room
     with the Chief Administrative Law Judge and the General Counsel. Since all materials in the ALJ
     library are available in the Law Library, the Chief Administrative Law Judge provided three reasons
     for needing the separate facility. The first reason is simply the convenience of the research
     materials to the ALJ offices on the second floor of the USITC building. ALJ staff use the room
     almost daily for legal research. ALJ privileged files are also stored in the room.

     Secondly, the Chief ALJ feels that the reading room ensures that the necessary research materials
     will be accessible during hearings when prompt evidentiary rulings are needed.

     But the most prominent reason for a separate library is the need for the perception of
     independence for the Administrative Law Judges as prescribed in 5 U.S.C. §S54(d) as discussed
     in the Administrative Law Treatise:

          ... ALJs cannot be subject to supervision or direction by any agency employee with
          investigative or prosecutorial functions ....

          ALJs are very nearly as independent of federal agencies as federal trial judges are of
          the Executive Branch. This high degree of independence of ALJs from agencies is
          designed to protect the rights of individuals affected by agency adjudicatory decisions
          from any potential sources of bias.

     The Chief Administrative Law Judge feels that this independence would be impaired if the ALJs
     were required to use the Law Library. The General Counsel indicated her support for this
     independence and agreed that the current suballocation of the OGC budget for books and serials
     to the Chief ALJ also promotes this independence. As indicated earlier, the budget for ALJ library
     materials was $14,000 for fiscal year 1993.

UK                                                 - 10 -
&W
                     UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                        RESULTS OF PROCEDURES




     Results of the user survey: We conducted a survey of twenty frequent users of the USITC
     libraries from various offices within the agency to determine their usage patterns and obtain their
     opinions on the possible effects of an organizational restructuring involving the libraries. Although
     almost all of the interviewees used more than one library, their usage was rarely evenly divided.

     The employees indicated that a variety of resources were used during their research and although
     they all used the help of the library staff, the amount of assistance needed varied widely. The
     majority of interviewees indicated some level of concern regarding a potential consolidation of the
     library functions and generally felt that it would hurt the Law Library to some extent. It was also
     felt that efficiencies gained (due to the smaller size of the Law Library) would be lost.

      Possible effects of a reorganization of library functions: Based on our discussions with USITC
      employees, it appears that any management reorganization related to the libraries would have a
     -larger effect on the Law Library (and its operations) than on the Main Library.

     The General Counsel, the Law Librarian, and most of the users we interviewed, all were of the
     belief that a reorganization would place added bureaucratic burdens on the smaller library.
     Implementing some of the policies and procedures of the Main Library in the Law Library such as
     the computerized check-out procedures, would increase the work load within the Law Library with
     only slightly improved control over borrowed materials. We were unable to identify any significant
     operating improvements to be derived from a reorganization on the Law Library.

     The General Counsel and the Law Librarian expressed concerns about having the Law Library
     reporting to a different supervisory department. The Law Librarians often discuss potential
     acquisitions with the General Counselor other legal staff. The technical nature of the materials
     being purchased for the Law Library makes it impractical for non-legal staff to be responsible for
     managing the acquisition of legal materials.

     The General Counsel believes that she is in the best position to know if the Law Library is
     supporting the legal needs of the users adequately. She believes that a reorganization would
     jeopardize the OGC' 5 active control over the management of the Law Library. The General Counsel
     is pleased with the current operation of the Law Library and our user survey did not identify any
     problems or difficulties with the Law Library.

     The staff within the Main Library was of the belief that there would be little benefit to the Main
     Library in a consolidation and agreed with the Law Library staff that it would increase the
     administrative load within the Law Library. One staff member, however, felt that a consolidation
     might improve the communications between the two libraries and result in one supervisor being
     familiar with the operations of both libraries.

     The actual cost of completing a consolidation of the libraries would appear to be limited to the
     administrative time in developing new lines of responsibility. Management should be able to draw
     on their experience gained from their most recent reorganization to determine the effort needed
     to complete such a reorganization.



UK                                                  - 11 -
&W
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                       RESULTS OF PROCEDURES




     Conclusion: Overall, based on the results of our evaluation, it appears that any efficiency of
     operations gained from a reorganization, including the possible advantages gained in improved
     communications and reduced duplication in acquisitions, appears limited when compared to the
     benefits inherent in the current organizational structure of the libraries.




     The following section outlines certain findings and recommendations related to the internal controls
     within the USITC libraries identified during our study.




UK                                                  - 12 -
&W
                                          SECTION IV

        FINDINGS AND RECOMMENDA TIONS




UK
&W ·~iiiiiiiiiiiiiii~~~~iiiiiiiiiiiiiii   ~~iiiiiiiiiiiiiii~~   ___
                      UNITED STATES INTERNATIONAL TRADE COMMISSION

                            EVALUATION OF THE ORGANIZATIONAL
                            STRUCTURE OF COMMISSION LIBRARIES

                                FINDINGS AND RECOMMENDATIONS



     1J   INADEQUATE SEGREGATION OF DUTIES OVER SOME UBRARY PURCHASES

          Condition

          The current organizational structure for the Main Library does not always provide for the
          proper separation of duties necessary to maintain adequate internal controls over
          acquisitions. In this regard, we noted that The Section Head, Technical Services, in her
          alternating function as Acting Chief of Library Services is capable of requesting, authorizing
          and receiving materials for the Main Library. We also noted that no supervisory level
          authorization occurs within the Main Library for credit card invoices.

          Criteria

          The United States General Accounting Office's Standards for Internal Controls in the Federal
          Government state "Key duties and responsibilities in authorizing, processing, recording and
          reviewing transactions should be separated among individuals. To reduce the risk of error,
          waste, or wrongful acts or to reduce the risk of their going undetected, no one individual
          should control all key aspects of a transaction or event."

          Cause

          The current additional role assumed by the Section Head, as well as the ability of the Main
          Library staff to bypass the requirements of the ITC Form 51 allows orders for books, serials
          and other materials to be placed directly without evidence of proper approval.

          Effect

          USITC does not have adequate control over the ordering of some materials by the Main
          Library, a condition which increases the possibility of waste or abuse.

          Recommendation

          The Director of the Office of Information Services should establish a clearer delineation of
          responsibilities for the Section Heads to ensure that adequate separation of duties is present
          for all material acquisitions.

          Commission's Response

          The Commission agreed that during the reorganization of the Main Library, there was a
          "blurring of responsibilities" between the Office of Chief of Library Services and the two
          Section Heads. New acquisitions strategies for the Main Library will conform to the
          Recommendation.




UK                                                 - 13 -
&W
                      UNITED STATES INTERNATIONAL TRADE COMMISSION

                            EVALUATION OF THE ORGANIZATIONAL
                            STRUCTURE OF COMMISSION LIBRARIES

                                 FINDINGS AND RECOMMENDATIONS



     2)   USlTC'S PROCEDURES FOR AVOIDING                   DUPUCATIONS     IN   ORDERING     REOUIRE
          ENHANCEMENT

          Condition

          Because of the separation of the Main Library and the Law Library, both physically and
          operationally, decisions regarding acquisitions are made independently. Each library is in a
          position to consult the Bibliophile system for identifying specific titles .held by the other
          library and contacts the other library on an as needed basis to avoid unnecessary duplication
          in ordering. These procedures, however, are highly informal and documenting the procedures
          to be performed will reduce the likelihood of unnecessary duplication of titles between the
          two libraries.

          Results of our tests, however, did not identify any unintentional duplication of materials and
          some duplication is intentional for some materials frequently used in each of the libraries.

          Criteria

          GAO's Standards for Internal Controls in the Federal Government require that internal control
          systems are established to provide reasonable assurance that, among other things, resources
          are safeguarded against waste, loss or misuse.

          Cause

          Materials purchased for each respective library are seldom duplicated due to the different
          goals and users of each library. Thus, procedures for avoiding duplicated purchases have
          not been formally developed or documented.

          Effect

          The current system does not adequately ensure that unnecessary duplications in acquisitions
          are detected in a timely manner.

          Recommendation

          The Acting Chief of Library Services and the Law Librarian should develop desk procedures
          documenting the steps taken to avoid unnecessary duplications in acquisitions and ensure
          that all appropriate staff are aware of and follow these procedures. These procedures should
          include some form of written evidence regarding the procedures, to further strengthen the
          controls.

          Commission's Response

          The Commission agreed to clarify procedures for avoiding duplications and, in this regard,
          the Main Library and the Law Library have adopted a modified acquisitions policy.


UK                                                 - 14 -
&W
                                    SECTION V

     OTHER MA TTERS AND SUGGESTIONS




UK
&W   ~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~~~~~""""'~~~   __
                    UNITED STATES INTERNATIONAL TRADE COMMISSION

                             EVALUATION OF THE ORGANIZATIONAL
                             STRUCTURE OF COMMISSION LIBRARIES

                                 OTHER MATTERS AND SUGGESTIONS



     USITC Directive 3601.1 does not address the policies and procedures for USITC departments,
     specifically the libraries, which are able to access the SACONS directly and do not generate Form
     51 s. The Directive should be updated to develop uniform procedures for purchasing library books
     and materials directly. Segregation of duties concerns as discussed in Finding 1 should also be
     addressed.

     The Main Library and Law Library currently receive, file and distribute certain brochures, pamphlets
     and Congressional reports published by the Government Printing Office.                The budgetary
     responsibility for these items, however, is currently assigned to the Office of Management
     Services. The Office of Finance and Budget should consider reallocating the budget for these
     materials to the Office of Information Services which now oversees these activities.




UK                                                  - 15 -
&W
                                                               Appendix




OPERATION'S RESPONSES TO THE DRAFT AUDIT REPORT ON THE EVALUATION OF THE
            ORGANIZATIONAL STRUCTURE OF COMMISSION LIBRARIES

RECOMMENDATION 1.     Inadequate Segregation of Duties Over Some Library
Purchases

     The current organizational structure for the Main Library
     does not always provide for the proper separation of duties
     necessary to maintain adequate internal controls over
     acquisitions. In this regard, we noted that The Section
     Head, Technical Services, in her alternating function as
     Acting Chief of library Services is capable of requesting,
     authorizing and receiving materials for the Main library.
     We also noted that no supervisory level authorization occurs
     within the Main Library for credit card invoices.

      The Director of the Office of Information Services should
      establish a clearer delineation of responsibilities for the
      Sections Heads to ensure that adequate separation of duties
      is present for all material acquisitions.

     RESPONSE:      AGREE

     We agree that during the reorganization of the Main Library,
     there was a blurring of responsibilities between the Office
     of Chief of Library Services and the two Section Heads. New
     acquisitions strategies for the Main Library will conform to
     the Auditor's Report. The Chief, Library Services will sign
     off on all SACONS order forms as well as the standard
     requisition form 51. In the absence of the Chief of Library
     Services, the Head of Reference and Research Services, who
     does not have access to SACONS, will be required to sign off
     on purchase orders generated by SACONS.

     TARGET COMPLETION DATE:     March 22, 1994.


RECOMMENDATION 2. USITC's Procedures for Avoiding Duplications in
Ordering Requires Enhancement

     The Acting Chief of Library Services and the Law Librarian
     should develop desk procedures documenting the steps taken
     to avoid unnecessary duplications in acquisitions and ensure
     that all appropriate staff are aware of and follow these
     procedures. These procedures should include some form of
     written evidence regarding the procedures, to further
     strengthen the controls.

     RESPONSE:      AGREE

     Although the auditors have found no evidence of accidental
     duplication between the Libraries' collections, they
      recommended documenting routine actions and decisions that
      are already carried out to enhance internal controls. The
      Main Library has a policy on acquisitions which was revised
      in March 1993. To clarify the procedures for avoiding
      duplications, the Main Library and the Law Library have
      adopted a modified acquisitions policy that requires the
      Request Forms to be checked and dated to indicate that a
      thorough search of the Law Library or Main Library
      collection, as appropriate, has been made for those titles
      where an overlap may occur.

TARGET COMPLETION DATE:   March 22, 1994
                  PROCEDURES FOR PROCESSING A PURCHASE REQUEST
                            Effective March 22, 1994


I.     The request is given to the Chief, Library Services, for approval.   The
       request is checked for proper authorization by a supervisor of the
       employee.

       A.    If the request does not have the proper authorization, the Chief
             returns it.

       B.    The Chief may contact the requestors if she has questions.

       C.    If the Chief approves the request, she signs it, notes any special
             instructions, and gives it to the Head, Technical Services.

II.    The Head of Technical Services reviews the request and may call the
       requestor for more information, or search various reference tools, as
       needed. She notes any special instructions on the request.

       A.    If the title seems to be more in the collection area of the Law
             Library, the Head of Tech Services will direct that the request be
             returned to her if it is not found during routine searching. She
             will then contact the Law Library and see if the title is on
             order.

             1.    If the title is on order, the request will be turned over to
                   the Law Library and Tech Services will notify the requestor.


             2.    If the title is not on order, the Librarians will determine
                   which Library, or both, will order the title. If the title
                   is wanted by both Libraries, the Acquisitions Specialist
                   will note on the Request Form that the duplication is
                   intended.

       B.    If the request is justified, and does not seem more appropriate to
             the Law Library, it will be turned over to the Acquisitions
             personnel of the Main Library. After checking with the Law
             Library, the Acquisitions Specialist will initial the appropriate
             box on the Request Form indicating that an inquiry has been made.

III.   All requests will be searched in the Bibliofile public catalog, and if
       appropriate, the old card catalog. They will also be searched in the
       alphabetically arranged notebook of orders. In addition to Bibliophile,
       the Main Library checks OCLC to ensure no unwanted duplications are
       made.

       A.    The requestor will be notified if the title is available in, or
             has already been ordered by, either of the Libraries.

                                       1
                   a.    Arrange for direct purchase and pick-up.if they accept
                         credit card or government purchase order.

                   b.    If they do not accept either, try to get money from
                         the imprest fund.

                   c.    If imprest money is not immediately available, call
                         other book stores.

                   d.    If other book stores do not have it, ask Reprint to
                         order the book.

             2.    For all publishers outside the Washington area.

                   a.    Call other book stores and check availability.

                   b.    If not available in the area, ask Reprint to order it
                         if it is immediately available from their supplier.

                   c.    Call the publisher and order the item by credit card.
                          Try to get expedited service, including FedEx.

                   d.    If credit cards are not accepted, but cash is, talk to
                         the Library Chief about paying by check.

                   e.    If the previous measures fail, ask Reprint to order it
                         if it is from a U.S. publisher

                   f.    Send orders for foreign publishers, or other titles
                         that Reprint cannot get, to Yankee or Orbit.

VI.    All monographic orders will be given to the person that ordered them
       upon receipt.

       A.    If the invoice arrives with the item, receipt of the item will be
             noted, and the invoice will be forwarded to the Head of Tech
             Services.

       B.    If the invoice is sent separately from the item, the arrival of
             the item will be noted on the order.

VII.   The Chief of the Library is responsible for signing all invoices,
       whether monographs or serials, regardless of the method of purchase.
       This responsibility may be delegated to the Head, Technical Services.

       A.    The Head of Tech Services will verify the receipt or ordering of
             items listed on the invoice.

       B.    The Chief, or if assigned, the Head of Tech Services will sign the
             invoice to approve it for payment, and forward it to Finance and
             Budget.


                                       3
       C.   In the case of SACONS orders, the Chief of Library
            Services, or in her absence, the Head of Reference &
            Research Services, will sign off on the order to
            comply with the Auditors' recommendation~




Acting Chief, Main   Library~c1eM.... t!   D

Law Librarian   ~/;1~
                ~~---~.p-----------------
                     pi'




                                    4
                             Exempted Categories

The two ITC Libraries have specialized collections with a minimal amount of
duplication. Moreover, titles already in the collection will appear in the
Bibliofile Intelligent Catalog. The following lists will provide guidance for
when it is, and is not, necessary to check with the other Library for tit1es
that are on order.

Staff in the Main Library do not need to check with the Law Library when
ordering materials on the following subjects:

      Biographies
      Industrial histories, studies, dictionaries, techniques, and directories
      Statistics
      Country and cultural studies
      Industry and commerce of a country or region
      Travel Books
      Economic theory
      Trade Policy
      Studies of international trade laws

Staff in the Law Library do not need to check for duplication with the Main
Library when ordering the following materials:

      Legal Codes
      International trade laws and their effects
      Collections of laws relating to special topics
      Trade policy

Staff in both Libraries do not need to check for duplication for the following
materials:

     Reference materials
     Materials that the Cost Center manager has determined are needed even if
     duplicated in the other Library.
                            SERIAL PUBLICATIONS REQUEST FORM

                                                                          Date:
                                                                                  ---------
      Please fill in as much of the following information as you have. If you
have an advertisement or review that gives this information, you may attach
that instead. Please fill in the title on the order form too, in case the
papers become separated.
      You should receive an acknowledgement within 48 hours after the library
receives your request. if you don't, you may wish to check on your order.

Title:
         --------------------------------------
Publisher:
             --------------;-------------------------
Frequency:                                _ ISSN (if known)                                     __

Price (if known)   =                      _




Do you recommend the purchase of back issues of this periodical: Yes                            _
                                                                 No
      If Yes, what years are you interested in obtaining?

         Do you also want an ongoing subscription?:

Routing:     To staff member                      _         To Division
                                                                         -----------
Retained:     In Division                                   In Library                  _
                         ---------
What is retention policy?      Number of Years
                                ----------------
Name of requestor
                   -------------------------------
Division:                                     _          Telephone :                        _

When needed:    Urgent                _               Regular request
                                                                       ----------

Approved:                                                                   _
               (Chief, Library Services)

To be filled in by Acquisitions Specialist:                  Checked for duplication:        __
                                                                                        (Date)

  Exempted category:                              _     Duplicate wanted:                       _




Revised 3-16-94
